                                                     OFFICE OF INSPECTOR GENERAL
                                                                               MEMORANDUM




DATE:           September 5, 2001

TO:             Chairman

FROM:           Inspector General

SUBJECT:        Government Information Security Reform Act Report


The Office of Inspector General (OIG) has completed an evaluation of the Commission’s
Information Security program in accordance with the Government Information Security Reform
Act (Security Act). The Security Act requires that Inspectors General, or independent evaluators
they choose, perform an annual evaluation of each agency’s information security program and
practices. I have attached a copy of out report, entitled FY 2001 Government Information
Security Reform Act Evaluation,” summarizing the results of our evaluation of the
Commission’s Information Security program.

In accordance with guidelines published by the Office of Management and Budget (OMB), the
OIG report consists of two sections: (1) an executive summary, and (2) the independent
evaluation. The executive summary section provides a brief background of the Security Act and
the purpose of the evaluation, evaluation objectives and scope, and the results of the evaluation.
The independent evaluation section provides a brief summary of the evaluation and provides
OIG responses to specific questions required by OMB reporting instructions1. Our report has
been developed for incorporation into one document with the Security Act report produced by
the Chief Information Officer (CIO). This combined report is required to be submitted to OMB
by September 10, 2001.

As a result of the independent evaluation, we have concluded that the Commission has a
generally effective information security program with acceptable practices for managing and
safeguarding the Federal Communications Commission’s (FCC’s) information technology


1   Office of Management and Budget (OMB) Memorandum for the Heads of Executive Department and
    Agencies (Memorandum No. M-01-24) entitled “Reporting Instructions for the Government Information
    Security Reform Act” and dated June 22, 2001.
assets. However, during the evaluation, we identified areas for improvement in the FCC’s
information security management, operational and technical controls. We are addressing these
issues with FCC management in a separate Special Review Report.

If you have any questions, please contact me at (202) 418-0476.




                                     H. Walker Feaster III

Attachment

cc:    Chief of Staff
       Managing Director
       Chief Information Officer
       AMD-PERM
Federal Communications Commission
     Office of Inspector General




  FY 2001 Government Information Security
           Reform Act Evaluation

             September 5, 2001

             Prepared by KPMG, LLP
                               EXECUTIVE SUMMARY


Background

The Government Information Security Reform Act (Security Act), passed last year as
part of the FY 2001 Defense Authorization Act (P.L. 106-398), amended the Paperwork
Reduction Act of 1995 (PRA) by adding a new subchapter on information security. The
Security Act focuses on the program management, implementation, and evaluation
aspects of the security of unclassified and national security systems. Generally, the
Security Act codifies existing Office of Management and Budget (OMB) security
policies, Circular A-130, Appendix III, and reiterates security responsibilities outlined in
the Computer Security Act of 1987, the PRA, and the Clinger-Cohen Act of 1996. In
addition, the Security Act requires annual agency program reviews and annual
independent evaluations for both unclassified and national security programs.

A key provision of the Security Act requires that the Inspector General (IG) perform an
annual independent evaluation of the information security program of the Federal
Communications Commission (FCC). The Security Act also permits the IG to select an
independent evaluator to perform this evaluation. The IG contracted with KPMG, LLP
to perform the independent evaluation as required by the Security Act.

The purpose of this review was to perform the independent evaluation of FCC’s
information security program and practices to ensure proper management and security for
the information resources supporting the agency’s operations and assets as required by
the act.

To perform this independent evaluation, we followed the guidance as described in OMB
Memorandum M-01-08, entitled “Guidance on Implementing the Government
Information Security Reform Act” and dated January 16, 2001. Also quite relevant to
this evaluation was guidance from OMB Memorandum M-01-24, entitled “Reporting on
the Government Information Security Reform Act” and dated June 22, 2001. OMB M-
01-24 provided the topics/questions that were required to be addressed in the IG’s
independent evaluation of the FCC’s information security program and practices. The
independent evaluation, which includes the responses to topics/questions-2 – 13, is
attached

The fundamental mission of the Federal Communications Commission (FCC) is to
implement the Communications Act of 1934, as amended, in a manner that promotes
competition, innovation, and deregulation in the communications industry and the
availability of high quality communications services for all Americans. In order to
achieve these objectives, the Commission must strive to stay on the cutting edge of
changes in technology, economics and law.




                                              1
As stated in the Commission’s FY 2002 Budget Estimate to Congress, the advent of
Internet-based and other new technology driven communications services will continue to
erode the traditional regulatory distinctions between different sectors of the
communications industry. The FCC recognizes that their most immediate challenge is to
integrate the changing character of the industry into its core functions of 1) licensing; 2)
consumer protection; 3) enforcement; 4) promotion of competitive markets; and 5)
spectrum management.

In the past few years, the FCC has streamlined its licensing procedures and implemented
electronic filing capability in 78 services, 72% of all licensing systems. At the end of
Fiscal Year 2000, 62% of all license applications were filed electronically. Additionally,
93% of all applications were acted on within the FCC’s speed of disposal goals.
Implementation of these electronic licensing systems has led to improved processing time
and to a significant decrease in the number of backlogged applications.

In Fiscal Year 2000, the FCC made its website more accessible to their Internet users.
The FCC received 320 million “hits,” making the FCC one of the most popular
government online sites. The FCC’s consumer information centers received more than
789,000 consumer inquiries on such hot topics as cramming, slamming and spamming.

To this end, supporting specific information technology initiatives requires an effective
information security program that will safeguard FCC’s computer-based assets from
technological vulnerabilities, or from disruption of services. To support today’s
information technology infrastructure, effective management, operational and technical
controls are essential. The FCC’s method of implementing the requirements of the
Security Act is focused on ensuring that programs and policies are in compliance with
OMB A-130 requirements and in association with National Institute of Standards and
Technology (NIST).

Evaluation Objective

The objective of this independent evaluation was to examine the Commission’s security
program and practices. The examination included testing the effectiveness of security
controls for an appropriate subset of the Commission’s systems. The evaluation
objective also included a review of the Commission’s security policies, security
architecture, business continuity, security capital planning, critical infrastructure, and
security program planning and management. The specific objectives of the evaluation
were to:

•   Obtain an understanding of the Commission’s Information Technology (IT)
    infrastructure;

•   Obtain an understanding of the Commission’s information security program and
    practices;




                                             2
•   Use the Security Act security assessment tool to evaluate the effectiveness of the
    Commission’s information security program and assess risk for each component of
    the program. At a minimum, the assessment should include an identification and
    ranking of the critical information security threats to the FCC IT infrastructure on a
    risk vulnerability basis; and

•   Prepare the annual submission in accordance with the reporting requirements
    mandated under the Security Act for Fiscal Year 2001. In addition to preparing the
    annual submission, provide a detailed report that will (1) identify and rank the critical
    security risk factors and (2) contain observations and recommendations for
    improvements, if any.

Evaluation Scope

The evaluation approach consisted of reviewing documentation that included previous
special reviews and audits, by conducting interviews, attending meetings, and by
observations.

Our procedures were designed to comply with applicable auditing standards and
guidelines. These included AICPA Professional Standards, Generally Accepted
Government Auditing Standards (GAGAS) as well as GAO’s Federal Information
Systems Control Audit Methodology (FISCAM); however, this review was intended to
be a risk assessment and not a general controls review; FISCAM was used as appropriate
to assess management, operational and technical controls.

The scope of the evaluation included the security infrastructure managed by the Office of
Managing Director’s Information Technology Center (ITC) and the Auctions Automation
Branch of the Wireless Telecommunications Bureau (WTB). In addition, the scope
included selecting an appropriate subset of the Commission’s business applications. As
part of our evaluation of the FCC’s Computer Security Program, we selected the
Consolidated Database System (CDBS) application for review. CDBS is a major
application operated by the Commission’s Mass Media Bureau.

The evaluation methodology used was the NIST Self-Assessment Guide questionnaire
(National Institute of Standards and Technology Systems (NIST) Self-Assessment Guide
for Information Technology Systems). The final NIST Self-Assessment Guide was not
available, therefore, the draft Self-Assessment Guide was used.

Our observations are organized according to NIST control areas: management controls,
operational controls, technical controls. Within each control area, specific control
objectives are addressed.

Management Controls - Management controls focus on the management of the IT
security system and the management of risk for a system. They are techniques and
concerns that are normally addressed by management. The specific management control
objectives addressed are:


                                              3
   •   Risk Management
   •   Review of Security Controls
   •   Life Cycle
   •   Authorize Processing (Certification & Accreditation)
   •   System Security Plan

Operational Controls - The operational controls address security methods focusing on
mechanisms primarily implemented and executed by people (as opposed to systems).
These controls are put in place to improve the security of a particular system (or group of
systems). They often require technical or specialized expertise and often rely upon
management activities as well as technical controls. The specific operational control
objectives addressed are:

   •   Personnel Security
   •   Physical and Environmental Protection
   •   Production, Input/Output Controls
   •   Contingency Planning
   •   Hardware and System Software Maintenance
   •   Data Integrity
   •   Documentation
   •   Security Awareness, Training and Education
   •   Incident Response Capability

Technical Controls - Technical controls focus on security controls that the computer
system executes. The controls can provide automated protection for unauthorized access
or misuse, facilitate detection of security violations, and support security requirements for
applications and data. The specific technical control objectives addressed are:

   •   Identification and Authentication
   •   Audit Trails
   •   Logical Access Controls

Results of the Independent Evaluation

As a result of the independent evaluation, we have concluded that the Commission has a
generally effective information security program with acceptable practices for managing
and safeguarding the FCC’s information technology assets.

During the evaluation, we identified in-place controls in key areas such as a current
computer security program policy. An update to the current policy is already in
circulation for approval and it is planned that this policy will replace the current policy by
November 2001. The revised computer security program policy, which is in draft, is
indicative of how proactive the FCC is with keeping pace with technological challenges,
changes, demands, and innovations.


                                              4
The FCC is diligent about synchronizing their procedures with OMB A-130 guidance.
The security plan templates that have been created for general support systems and major
applications are designed in accordance with NIST guidance for developing security
plans. The FCC has begun development of their security plans; however, an area for
improvement is to complete the security plans for all of the major applications.

On a monthly basis, the Computer Security Officer conducts Security Awareness
Training for all new users who are granted access to the FCC Network general support
system. Also in place is a recently developed system development life cycle
methodology that was developed jointly with the Information Technology Center (ITC)
and the Office of Inspector General (OIG).

An initiative demonstrated by the ITC was a site visit to J.P. Morgan/Chase Bank prior to
allowing the processing of FCC data. The ITC group made an unannounced visit to the
J.P. Morgan office in New York to review the effectiveness of the bank’s security
posture. The visit proved successful and authorization for J.P. Morgan to handle
processing for the FCC was awarded.

Last year, the FCC conducted numerous computer security assessments. The
assessments identified potential risks and provided countermeasures and safeguards to
mitigate the risks identified. In addition, a risk assessment of the FCC Net and Auctions
LAN general support systems was conducted.

Although the FCC has several controls in place, areas for improvement in the
management, operational and technical control areas exist. To strengthen the agency’s
security program and practices, a strategy and plan of action as prescribed by OMB M-
01-24, Reporting Instructions for the Government Information Security Reform Act,
topic/question #14, should be developed with milestones that include completion dates,
how the agency plans to address control areas that need to be strengthened as identified
through the independent evaluation, and should identify a strategy to overcome any
obstacles that would affect addressing known weaknesses.




                                             5
                                                                               Page 1 of 24


        Independent Evaluation of the FCC’s Information Security Program

The Government Information Security Reform Act (Security Act) was passed last year as
part of the FY 2001 Defense Authorization Act (P.L. 106-398). The Security Act focuses
on the program management, implementation, and evaluation aspects of the security of
agency computer systems. The Security Act codifies existing Office of Management and
Budget (OMB) security policies, Circular A-130, Appendix III, and reiterates security
responsibilities outlined in the Computer Security Act of 1987, the PRA, and the Clinger-
Cohen Act of 1996. An important provision of the Security Act requires the Inspector
General (IG) perform an annual independent evaluation of the information security
program of the Federal Communications Commission (FCC). The Security Act also
permits the IG to select an independent evaluator to perform this evaluation.

The purpose of this review was to perform the independent evaluation of FCC’s
information security program and practices to ensure proper management and security for
the information resources supporting the agency’s operations and assets as required by
the act.

The objective of this independent evaluation was to examine the Commission’s security
program and practices. The examination included testing the effectiveness of security
controls for an appropriate subset of the Commission’s systems. The evaluation
objective also included a review of the Commission’s security policies, security
architecture, business continuity, security capital planning, critical infrastructure, and
security program planning and management

To perform this independent evaluation, we followed the guidance as described in OMB
Memorandum M-01-08, entitled “Guidance on Implementing the Government
Information Security Reform Act” and dated January 16, 2001. Also relevant to this
evaluation was guidance from OMB Memorandum M-01-24, entitled “Reporting on the
Government Information Security Reform Act,” and dated June 22, 2001. OMB M-01-
24 provided the topics/questions that were required to be addressed in the IG’s
independent evaluation of the FCC’s information security program and practices.

The evaluation approach consisted of reviewing documentation that included previous
special reviews and audits, by conducting interviews, attending meetings, and by
observations.

Our procedures were designed to comply with applicable auditing standards and
guidelines. These included AICPA Professional Standards, Generally Accepted
Government Auditing Standards (GAGAS) as well as GAO’s Federal Information
Systems Control Audit Methodology (FISCAM); however, this review was intended to
be a risk assessment and not a general controls review; FISCAM was used as appropriate
to assess management, operational and technical controls.

The scope of the evaluation included the security infrastructure managed by the Office of
Managing Director’s Information Technology Center (ITC) and the Auctions Automation
                                                                              Page 2 of 24


Branch of the Wireless Telecommunications Bureau (WTB). In addition, the scope
included selecting an appropriate subset of the Commission’s business applications. As
part of our evaluation of the FCC’s Computer Security Program, we selected the
Consolidated Database System (CDBS) application for review. CDBS is a major
application operated by the Commission’s Mass Media Bureau.

The evaluation methodology used was the NIST Self-Assessment Guide questionnaire
(National Institute of Standards and Technology Systems (NIST) Self-Assessment Guide
for Information Technology Systems). The final NIST Self-Assessment Guide was not
available, therefore, the draft Self-Assessment Guide was used.

The Office of Management and Budget, Memorandum 01-24 (OMB M-01-24) provides
the topics/questions for response by the Chief Information Officers (CIO) and Inspector
Generals (OIG) of federal agencies. OMB-01-24 provides 14 questions that require
response. OMB requests that OIG’s respond to questions 2-13. All responses were based
on the results of the OIG’s independent evaluation.

The Commission’s Office of Inspector General contracted for the professional services
firm of KPMG, LLP to prepare the independent evaluation and respond to questions 2-13
as requested by OMB. KPMG’s approach to responding to questions 2-13 was to
perform an independent evaluation as required by the Government Information Security
Reform Act. The evaluation methodology used was the National Institute of Standards
and Technology (NIST) Self-Assessment Guide for Information Technology Systems
questionnaire While performing the independent evaluation, numerous interviews were
conducted and a number of documents provided by FCC were reviewed.

As a result of the independent evaluation, we have concluded that the Commission has a
generally effective information security program with acceptable practices for managing
and safeguarding the FCC’s information technology assets. During the evaluation, we
identified in-place controls in essential areas such as a current computer security program
policy. An update to the current policy is already in circulation for approval and it is
planned that this policy will replace the current policy by November 2001. The revised
computer security program policy, which is in draft, is indicative of how proactive the
FCC is with keeping pace with technological challenges, changes, demands, and
innovations.

Although the FCC has several controls in place, areas for improvement in the
management, operational and technical control areas exist. To strengthen the agency’s
security program and practices, a strategy and plan of action as prescribed by OMB M-
01-24, Reporting Instructions for the Government Information Security Reform Act,
topic/question #14, should be developed with milestones that include completion dates,
how the agency plans to address control areas that need to be strengthened as identified
through the independent evaluation, and should identify a strategy to overcome any
obstacles that would affect addressing known weaknesses.
                                                                                 Page 3 of 24


OIG Responses to OMB M-01-24 Security Act Reporting Topics/Questions

Question #1 - In this section, the agency shall provide the following information:

Identify the agency’s total security funding as found in the agency’s FY01 budget
request, FY01 budget enacted, and the FY02 budget request. This should include a
breakdown of security costs by each major operating division or bureau and include
critical infrastructure protection costs that apply to the protection of government
operations and assets. Do not include funding for critical infrastructure protection
pertaining to lead agency responsibilities such as outreach to industry and the public.

OIG response to Question #1 - This question is not applicable to the OIG per OMB
reporting instructions.

Question #2 - Identify the total number of programs included in the program review or
independent evaluations.

OIG response to Question #2 - In accordance with the guidelines contained in the OMB
guidance, we selected an application from among the Commission’s major applications
for detailed review. Based on revenue generation, the Wireless Telecommunications
Bureau (WTB) and the Mass Media Bureau head the list. Due to initiatives currently
underway for WTB, we did not focus on WTB’s major applications and general support
system in the program review.

For the Fiscal Year 2001 review, the Mass Media Bureau (MMB) was selected. The
MMB is second in revenue generation to WTB. MMB ensures that consumers have
access to interference-free radio and television services that are in the public interests.
To achieve this, MMB issues licenses for radio and television stations and establishes
regulations to make certain that these stations serve their local communities through
programming and advertising.

As part of our evaluation of the FCC’s Computer Security Program, we selected the
Consolidated Database System (CDBS) application for review. CDBS is a major
application operated by the Commission’s Mass Media Bureau. CDBS is the Mass
Media Bureau’s Internet based system that permits electronic filing of broadcast radio
and television application forms with the FCC. The CDBS provides a Public Access
System and an Electronic Filing System for internal use and external use.

CDBS is ranked high in the amount of revenue generated by the system as well as high in
the OMB A-130 criteria of availability, integrity, and confidentiality. When appropriate,
the FCC’s general support system, FCC Net, is included in the program review as we
moved through the assessment of control areas.

Question #3 - Describe the methodology used in the program reviews and the
methodology used in the independent evaluations.
                                                                                Page 4 of 24


OIG response to Question #3 - The independent evaluation was performed using the
draft version of the NIST Self-Assessment Guide. The independent evaluation consisted
of reviewing Management Controls, Operational Controls and Technical Controls with
the NIST Self-Assessment Guide framework. Within each control area, specific control
objectives were addressed. A description of the NIST Self-Assessment Guide control
areas is as follows:

Management Controls - Management controls focus on the management of the IT
security system and the management of risk for a system. They are techniques and
concerns that are normally addressed by management. The specific management control
objectives addressed are:

   •   Risk Management
   •   Review of Security Controls
   •   Life Cycle
   •   Authorize Processing (Certification & Accreditation)
   •   System Security Plan

Operational Controls - The operational controls address security methods focusing on
mechanisms primarily implemented and executed by people (as opposed to systems).
These controls are put in place to improve the security of a particular system (or group of
systems). They often require technical or specialized expertise and often rely upon
management activities as well as technical controls. The specific operational control
objectives addressed are:

   •   Personnel Security
   •   Physical and Environmental Protection
   •   Production, Input/Output Controls
   •   Contingency Planning
   •   Hardware and System Software Maintenance
   •   Data Integrity
   •   Documentation
   •   Security Awareness, Training and Education
   •   Incident Response Capability

Technical Controls - Technical controls focus on security controls that the computer
system executes. The controls can provide automated protection for unauthorized access
or misuse, facilitate detection of security violations, and support security requirements for
applications and data. The specific technical control objectives addressed are:

   •   Identification and Authentication
   •   Audit Trails
   •   Logical Access Controls
                                                                               Page 5 of 24


Question #4 - Report any material weakness in policies, procedures, or practices as
identified and required to be reported under existing law.

OIG response to Question #4 - The Commission’s Fiscal Year 2000 Financial
Statement audit, June 27, 2001, reported material weaknesses regarding information
security policies, procedures or practices. The following deficiencies in security controls
were reported:

   •   FCC is not in compliance with OMB Circular No. A-130 Requirement for a
       Comprehensive Security Plan (modified repeat condition from FY 1999’s
       financial statement audit).

   •   FCC lacks a comprehensive and integrated security management structure. In
       such an environment, responsibilities could be unclear leading to the possibility of
       applying security controls inconsistently throughout the agency. As a result,
       certain vulnerabilities may be overlooked. In addition, monitoring the
       effectiveness of procedures for security controls throughout the agency will be
       ineffective.

   •   FCC has not performed risk assessments for its major application systems and its
       mission-critical general support system. FCC did perform vulnerability
       assessments for several of its major applications and general support systems in
       fiscal year 2000, but has not completed risk assessments as prescribed by OMB
       Circular No. A-123, Management Accountability and Control.

   •   There is no periodic review of security controls over FCC’s systems. In addition,
       FCC has not performed any formal certification and accreditation of its systems.
       FCC plans to conduct initial security reviews over a two-year period ending in
       fiscal year 2002. FCC plans to make these reviews part of its internal control
       review process.

During the fiscal year 2001 independent evaluation for GISRA, an organizational pattern
was observed with regards to management operating from draft policy guidelines. The
policies that are in draft are significant in the area of information security:

   •   FCC Personnel Security/Suitability Manual (draft policy)
   •   Management of Non-Public Information, Form 1139 (draft policy)
   •   Physical Security (policy not available)
   •   Information Security Manual, Form 1131 (expired policy)
   •   IT Strategic Plan (draft)

Question #5 - Describe the specific measures of performance used by the agency to
ensure that agency program officials have:

1. assessed the risk to operations and assets under their control;
2. determined the level of security appropriate to protect such operations and assets
                                                                               Page 6 of 24


3. maintained an up-to-date security plan (that is practiced throughout the life cycle) for
   each system supporting the operations and assets under their control; and
4. tested and evaluated security controls and techniques.

NOTE: Include information on the actual performance for each of the four categories.

OIG response to Question #5 - The Commission’s “Strategic Plan: A New FCC for the
21St Century”, August 1999, provides specific implementation plans for years 2000 –
2004. Section III, identifies specific policy initiatives and performance measures as a
roadmap for the Commission to follow over the next five years and to measure progress
toward the Commission’s objectives. In 1999, the specific performance measures used
by FCC to ensure that the Commission’s strategic plan was carried out, consisted of
identifying the performance measure, then measuring progress against two-year goals,
five-year goals, or timeframes such as by year 2003.

The critical tasks that must be achieved in order to make progress include the following
initiatives:

Create a Model Agency for the Digital Age

   1)   Lead the Way in the Information Age
   2)   Reorganize to Create an Agency Infrastructure Conducive to Convergence
   3)   Create a Faster, Flatter, More Functional Agency
   4)   Preserve and Increase the Wealth of Knowledge and Expertise of FCC Staff

Promote Competition in All Communication Markets

   1)   Eliminate Barriers to Entry in Domestic Markets
   2)   Deregulate As Competition Develops
   3)   Enforce the Rules so that Businesses Compete Fairly
   4)   Promote Competition in International Communications Markets

Promote Opportunities for All Americans to Benefit from the Communications
Revolution

   1) Ensure Access For All Americans To Existing And Future Communications
      Services
   2) Promote Opportunities to Expand Direct Participation In Existing And Future
      Communications Businesses
   3) Foster a More Consumer Friendly Marketplace

Manage The Electromagnetic Spectrum (the Nation’s Airwaves) In The Public
Interest

   1) Create More Efficient Spectrum Markets
   2) Increase the Amount of Spectrum Available, Particularly for New Services
                                                                             Page 7 of 24



(1) Risk Assessments (assess the risk to operations and assets under their control)

In evaluating FCC’s assets, the Commission determines which of their business
applications are considered major in accordance with guidance from OMB A-130,
Appendix III. The FCC’s Information Technology Center (ITC) uses evaluation
worksheets as a tool to determine FCC’s major applications. In the assessment, the ITC
group uses the following categories to determine whether the applications should be
categorized as major:

•   Importance (revenue)
      Dollar amounts generated by the system, by the collection of regulatory and
      application fees, which is returned to the Federal government.
      (Low = $0-$500K; Moderate +>$500K - <$1M; High =>$1M)

•   System Investment
       The dollar amount spent to date to develop and maintain the system, and any
       associated databases.
       (Low = $30 - $750K; Moderate = >$750K - <$2M; High = >$2M)

•   Administrative Significance
      The impact of not having the system, or its associated data, available for use by
      the Bureau/Office or the FCC. Important Note: Administrative Significance is a
      subjective ranking versus categories that are based on fixed costs.

•   Risk/Harm
       The amount of risk/harm that could be caused if the system, or its associated data,
       were compromised (i.e., the potential damage that might be caused by a person
       who gained unauthorized access to the data processed by a specific system. Risk/
       Harm is a subjective ranking versus categories that are based on fixed costs.

Any application rated “HIGH” in any of the four categories noted above is considered a
major application within the FCC infrastructure. However, the specific performance
measures for assessing the risk to assets under the Commission’s control needs to be
identified and included in the agency’s ITC Strategic Plan or the ITC Computer Security
Strategic Plan.

In determining the risk to operations, the Commission currently has a statement of work
in process to plan the development of a Continuity of Operations Plan (COOP). In
addition, the majority of the Commission’s business continuity plans represent Y2K as
the triggered event and does not reflect the current operating environment. The specific
measures of performance for COOP and BCP (Business Continuity Plan) programs need
to be identified by the appropriate program officials.
                                                                              Page 8 of 24


The Commission has a draft IT Strategic Plan, however, to line up with the agency’s
overall strategic plan, performance measures need to be identified and included in the
plan.

The actual performance of managing the risks associated with the operations and assets
under the Commission’s control could be enhanced by providing documented
management approval of final risk determinations of systems under the system owner’s
control.

(2) Appropriate level of security to protect such operations and assets

The Commission has performed security assessments on several of its major applications.
Potential risks, safeguards and countermeasures are identified in the security assessment.
The specific measures of performance for measuring the level of security to protect the
Commission’s IT assets need to be identified and included in the draft ITC Strategic Plan
or the ITC Computer Security Strategic Plan.

The level of security appropriate to protect operations consist of physical security
apparatus such as turnstiles for electronic badging of people entering and exiting the FCC
headquarters facility located at 445 12th Street, SW, Washington, DC. Also in place is
access control to sensitive areas such as the Commission’s data centers, wire closets, fire
suppression closets, and the telecommunication room which houses the Commission’s
telephone system.

The specific measures of performance for measuring the level of security to protect the
Commission’s operational assets need to be identified and included in the draft IT
Strategic plan.

The actual performance of determining the level of security appropriate to protect the
operations and assets under the Commission’s control could be enhanced by:

   •   Providing a more timely correction of deficiencies identified in the security
       assessments of the Commission’s major applications.

   •   Developing a formally documented policy for Physical Security.

(3) Up-to-date security plan (that is practiced throughout the life cycle)

The Commission’s business applications were developed before a formal system
development life cycle (SDLC) for the agency was implemented. As a result, security
plans are being developed in the maintenance phase of the Commission’s SDLC.

The Commission is also in the beginning stages of developing security plans for its major
applications and general support systems. A timeline for creating security plans has
been developed and is being monitored by the ITC group. The Commission has up-to-
date security plans developed for the following:
                                                                               Page 9 of 24



General Support Systems

•   FCC Net
•   Auctions Net

Major Applications:

•   Consolidated Database System
•   Universal Licensing System
•   Automated Auctions System
•   Experimental Licensing System
•   Equipment Authorization System

The specific measures of performance for maintaining up-to-date security plans for each
system supporting the operations and assets under the Commission’s control needs to be
identified and included in the draft ITC Strategic plan.

The actual performance of maintaining an up-to-date security plan (that is practiced
through the life cycle) could be enhanced by:

    •   Including as part of the SDLC process, FCC’s prescribed method for determining
        the sensitivity of its applications.

    •   Developing a security plan for each of the Commission’s major applications.

    •   Developing rules of behavior that are specific to the major application.

Providing a summary of all security plans in the IT Strategic Plan or the ITC Computer
Security Strategic Plan.

(4) Tested and evaluated security controls and techniques

In Fiscal Year 2000 and 2001, the Commission performed Certification and Accreditation
on several of its major applications. In this process, security assessments were conducted
which tested and evaluated the security controls and techniques of several major
applications.

The specific measures of performance for testing and evaluating security controls and
techniques for each major application supporting the operations and assets under the
Commission’s control needs to be identified and included in the draft ITC Strategic plan
or the ITC Computer Security Strategic Plan.
                                                                              Page 10 of 24


The actual performance of testing and evaluating security controls and techniques could
be enhanced by providing a more timely correction of deficiencies identified in the
security assessments of the Commission’s major applications.

Question #6 - Describe the specific measures of performance used by the agency to
ensure that the agency CIO:

1. adequately maintains an agency-wide security program;
2. ensures the effective implementation of the program and evaluates the performance of
   major agency components; and
3. ensures the training of agency employees with significant security responsibilities.

Include information on the actual performance for each of the three categories.

OIG response to Question #6

(1) Adequately maintaining an agency-wide security program

The FCC has designated a senior agency information security official who is referred to
as the CSO (Computer Security Officer) and who reports to the Deputy Chief
Information Officer (CIO). The agency-wide security program is developed and
maintained in accordance with subsection (b) of the Security Act as follows:

   •   The FCC has developed a system development life cycle that incorporates
       information security principles and practices, but it is formally being carried out
       from the maintenance phase onward in the life cycle.

   •   The FCC has developed security plans that is formally being practiced from the
       maintenance phase onward in the life cycle.

   •   The CSO is involved in overseeing the development and implementation of
       standards and guidelines relating to security controls for FCC’s applications and
       systems, however, performance measures need to be prescribed to determine how
       well the IT support for the FCC’s programs are being met.

The specific measures of performance used by the agency to ensure that the agency CIO
adequately maintain an agency-wide security program needs to be established and
included in the draft IT Strategic Plan and the ITC’s draft Computer Security Strategic
Plan.

(2) Ensuring the effective implementation of the program and evaluating the
    performance of major agency components

The FCC has developed security policies, procedures, and control techniques that are
implemented and that are being maintained by the CSO with support from other elements
                                                                               Page 11 of 24


of the Information Technology Center. An enhancement to make the program more
effective would be to:

   •   Improve information sharing techniques with the agency’s Bureaus and Offices.

   •   Better integrate communication, roles and responsibilities pertaining to
       implementing a more effective information security program with Bureaus and
       Offices relevant to the agency-wide security program.

   •   Develop a method to evaluate the performance of the FCC’s major components.

The specific measures of performance used by the agency to ensure that the agency CIO
ensures the effective implementation of the program and evaluates the performance of
major agency components needs to be established and included in the draft IT Strategic
Plan.

(3) Ensuring the training of agency employees with significant security
    responsibilities.

The Commission provides Security Awareness training for all of its employees,
contractors, interns and co-ops. To ensure the training of agency employees with
significant security responsibilities, the ITC has identified positions designated as high
risk and complies with guidance from the Office of Personnel Management regarding
personnel suitability.

The Commission’s training program does not require Offices and Bureaus to track and
monitor the training issued to employees. Any tracking and monitoring that is being
done is based on the initiative of the Offices and Bureaus. And as a result, the training of
agency employees with significant security responsibility is not currently a reporting
requirement for the agency’s CIO.

The specific measures of performance used by the agency to ensure that the agency CIO
ensures the training of agency employees with significant security responsibilities needs
to be established and included in the draft IT Strategic Plan and the ITC draft Strategic
Plan.

Question #7 - Describe how the agency ensures that employees are sufficiently trained in
their security responsibilities. Identify the total number of agency employees and briefly
describe what types of security training was available during the reporting period, the
number of agency employees that received each type of training, and the total costs of
providing such training.

OIG response to Question #7

   •   Total number of agency employees - The Fiscal Year 2000/2001 FTE’s totaled
       1,975 as presented in the President’s Budget for the FCC.
                                                                                 Page 12 of 24



    •   Type(s) of security training available during the reporting period - The
        reporting period consists of the Fiscal Year 2001. Security Awareness training
        briefings are provided around the middle of each month.

    •   Number of agency employees that received each type of training - During
        Fiscal Year 2001, approximately 700 FCC staff attended Security Awareness
        training.

    •   Total costs of providing such training - Total costs of providing Security
        Awareness Orientation training was not available from the FCC’s Training
        Program Director.

For additional types of security training provided to FCC staff, refer to the CIO’s annual
program evaluation for the Security Act.

Question #8 - Describe the agency’s documented procedures for reporting security
incidents and sharing information regarding common vulnerabilities. Include a
description of procedures for external reporting to law enforcement authorities and to the
General Services Administration’s FedCIRC. Include information on the actual
performance and the number of incidents reported.

OIG response to Question #8 - According to the FCC Computer Network (general
support system) security plan, the FCC’s Computer Incident Response Team (CIRT) has
been charged to act as the Commission’s focal point for mitigating the impact of
computer related incidents. The team is managed by the FCC Computer Security Officer
and is comprised of technical experts in the fields of PC’s, computer networks,
telecommunications, application(s) management, virus management, and security. The
team acts to prevent or minimize the impact of a threat against computer operations at the
FCC.

Planned controls consist of updating written policies and procedures for the incident
response capability. The plan is to have a documented program for recognizing and
handling incidents (e.g., viruses, intrusions, denial of service, etc.) by the third quarter of
Fiscal Year 2001.

In addition, according to the FCC Auctions Network LAN (general support system)
security plan, system anomalies or other potential security incidents are first reported to
the Auctions’ Technical Director. Incidents are then investigated and validated by FCC
staff and contractors; the cause and nature of the event or incident is resolved before
escalation. At the completion of the investigation, or during the course of the
investigation if immediate resolution is not possible, the Technical Director follows
appropriate FCC guidelines and reports the incident to designated FCC personnel. All
security incidents are reported to the CSO within a reasonable time period.
                                                                             Page 13 of 24


Planned controls consist of having the tool, HP VPO (Hewlett Packard Vantage Point
Operations) automatically page, e-mail, and/or display alerts on a message board
notifying the responsible staff member of suspicious activity.

The documented procedures for reporting security incidents, in addition to the security
plans for the general support systems, consist of the following:

    •   The ITC group has produced draft Incident Response Guidelines that contain
        procedures to monitor an incident and to ensure that is it resolved.

    •   The Auctions group has produced draft Incident Handling Procedures that provide
        steps to handle virus incidents and hacker/cracker attacks.

The current incident handling environment within FCC does not facilitate the sharing of
information regarding common vulnerabilities. However, one of the planned controls is
to have a documented program for recognizing and handling incidents (e.g., viruses,
intrusions, denial of service, etc.) by the third quarter of Fiscal Year 2001. Another
planned control is to have automatic paging, e-mailing, and/or displaying of alerts on a
message board to notify the responsible staff member(s) of suspicious activity.

•   Description of procedures for external reporting to law enforcement authorities and to
    the General Services Administration’s FedCIRC.

The current procedures for external reporting to law enforcement authorities and to the
General Services Administration’s FedCIRC consist of the following:

        The FCC’s Computer Incident Response Guidelines (draft, June 8, 2001), section
        6.6.2, states that if the incident involves criminal activity or possible criminal
        activity notify the OIG, the FBI and NIPC.

•   Include information on the actual performance and the number of incidents reported.

    The ITC identified and managed four incidents during FY’01, which included:

        •   the Chinese attack on U.S. government and military sites;
        •   one internal user who misused FCC resources for self gain; and
        •   Code Red and Code Red II.

Question #9 - Describe how the agency integrates security into its capital planning and
investment control process. Were security requirements and costs reported on every
FY02 capital asset plan (as well as exhibit 53) submitted by the agency to OMB? If no,
why not?
                                                                           Page 14 of 24


OIG response to Question #9 - The FCC integrates security into its capital planning and
investment control process by incorporating funds for security into the information
technology expenditures.

In the Fiscal Year 2002 Budget Estimates submitted to Congress in April 2001, the FCC
requested $10.997 million in required, additional, funding for life cycle replacement of
the Commission’s information technology infrastructure hardware and software, for
mandatory enhancements to twelve mission critical electronic filing systems and funding
to implement mandatory requirements for the Commission’s disability accessibility,
information security, and asset management programs. The funding will be distributed
among all five FCC activities: licensing, competition, enforcement, consumer
information and spectrum management. The additional funding would be expended in
the following areas:

Application System Maintenance and Development - The FCC requested $3.03
million for critical refreshments to twelve (12) mission critical systems. Mandatory
adjustments are needed to the Commission’s International, Cable Services, Mass Media
and Consumer Information systems, as well as to the FCC’s Office of Engineering and
Technology’s electronic filing systems. These applications were implemented several
years ago and require web/sql replacements or upgrades to include more robust JAVA
modules.

An additional $270K is required to implement an improved property management
inventory system. The FCC’s first financial audit revealed deficiencies in the FCC’s
information technology hardware/software inventory process. The additional funding
will be used to design and implement a system to improve the FCC’s data collection
processes.

Internet, Telecommunications, Security, and Network Support - The FCC requested
approximately $3.67 million for upgrades to the FCC’s network infrastructure hardware
and software which supports among other things, the FCC’s telecommuting program.
The FCC must replace many of the aging network servers, routers, switches, and local
printers as well as upgrade the network operating system and firewalls. Of the amount
requested, $331K is needed to ensure that all FCC applications fully meet federal
government security requirements as called for in OMB Circular A-130.

Desktop Computer Support - The FCC requested $2.7 million for life cycle
replacement of the FCC’s office automation software and hardware including
replacement of 900 personal computer and 200 laptops. In Fiscal Year 2002, the FCC
plans to migrate to the Microsoft Office suite and Windows 2000 as the Commission’s
desktop operating software.

A breakout of FCC’s information technology expenditures, including funding available in
the base is shown in the following chart.
                                                                                      Page 15 of 24



FCC IT Budget Expenditures by Fiscal Year

                                                                                             FY 2002
                                                                                             Increase
Information Technology Budget Initiatives      FY 1999    FY 2000    FY 2001     FY 2002
                                                                                              Above
             ($ in millions)                   (actual)   (actual)   (revised)   (request)
                                                                                             FY 2001
                                                                                              Level
(1) Application System Maintenance and           $3.1       $6.3       $6.5       $10.8       $4.300
Development
(2) Internet and Network Support                 $3.0       $3.8       $3.5        $7.5      $4.00
(3) Telecommunications                           $3.5       $3.3       $3.6        $3.6         -
(4) Desktop Computer Support                     $1.8       $2.5       $2.5        $5.2      $2.697
(5) Y2K Supplemental Funding                     $4.2       $2.4        -           -           -
                                   TOTAL
                                                           $18.3      $16.1       $27.1      $10.997
              IT Expenditures by Fiscal Year

A description of what information technologies are included in each category from the
chart on FCC IT Budget Expenditures is provided below.

(1) Application System Maintenance and Development -This expenditure would cover
30 data base systems of which 18 incorporate electronic filing or offer public access to
data. The databases supported include licensing, enforcement, rulemaking and internal
administration. It would also provide for routine upgrades, bug fixes and day-to-day
system maintenance functions.

(2) Internet and Network Support - This expenditure would support electronic filing of
license applications and other data. It would provide for an array of public information
on Commission actions, proceedings and related telecommunications matters. It would
also include maintenance of local area network, Internet and Intranet facilities, remote
access system, and computer/network security.

(3) Telecommunications - This expenditure would provide for ISDN desktop telephone
with voice mail and FTS 2001 services, automated call distribution and other specialized
systems for the help desk and the Gettysburg call center. It would also provide for
telephone and cellular phone services, voice mail, video and audio conferences,
automated call distribution and other specialized systems, data circuits, consulting and
PBX support.

(4) Desktop Computer Support - This expenditure would provide for desktop
computers, peripherals and comprehensive software suite. It would include access to the
Internet and agency and commercial databases. Additionally, it would provide for a
Computer Resources Center helpdesk and training facility. It would provide file, print
and email services supported by the local and wide area networks. It would also provide
support for remote access system connectivity for telecommuters and travelers.
                                                                                 Page 16 of 24


(5) Y2K Expenditures - This category represents the expenditures in 1999 and 2000 to
provide for the Year 2000 Bug remediation project. The expenditures for this category
were completed by March 31, 2000.

Question #10 - Describe the specific methodology (e.g., Project Matrix review) used by
the agency to identify, prioritize, and protect critical assets within its enterprise
architecture, including links with key external systems. Describe how the methodology
has been implemented.

OIG IG response to Question #10 - The specific methodology being used by the agency
to:

Identify critical assets:

•   The FCC used guidance from OMB Circular A-130, Appendix, III to identify its
    major applications and general support systems. In addition, the FCC used guidance
    from NIST SP 800-18, to determine confidentiality, integrity, and availability
    considerations to identify its critical assets. The assets were ranked High, Medium, or
    Low.

        To ensure that each FCC application experienced a consistent evaluation, the ITC
        group used a “yard stick” approach to evaluate each of the automated systems
        managed within the FCC network. The ITC group developed a methodology that
        allowed the group to provide a consistent criteria against which each of the
        automated applications, and its associated data, resident on the FCC network were
        evaluated. Any application rated “High” in any of the four categories in the table
        below were considered to be major within the FCC infrastructure.

                                        ITC “Yard Stick”
Importance                  Dollar amounts generated by the system, by the collection of
(Revenue)                   regulatory and application fees, which is returned to the Federal
                            government.
                            Low = $0 - $500K
                            Moderate =>$500K - < $1M
                            High = >$1M
System Investment           The dollar amount spent to date to develop and maintain the
                            system, and any associated databases.
                            Low = $0 - $750K
                            Moderate =>$750 K - <$2M
                            High = >$2M
Administrative              The impact of not having the system or its associated data
Significance                available for use by the Bureau/Office or the FCC
                            Important Note: Administrative Significance is a subjective
                            ranking versus categories that are based on fixed costs.
                                                                               Page 17 of 24


Risk/Harm                  The amount of risk/harm that could be caused if the system, or its
                           associated data were compromised (i.e., the potential damage that
                           might be caused by a person who gained unauthorized access to
                           the data processed by a specific system.)
                           Important Note: Risk/Harm is a subjective ranking versus
                           categories that are based on fixed costs.

Prioritize critical assets:

•   The FCC used the “yard stick” methodology that was developed by the ITC group to
    identify prioritization. The amount of revenue generated by the system determined its
    level of importance. However, this importance rating is not the criteria used in
    operations while servicing and maintaining the system in the client/server
    environment. Service level prioritization still needs to be determined.

[NOTE: The importance rating is based on revenue generated by the system; investment
amount is based on cost of developing the system; administrative significance is based on
the reliability level of the system; and risk/harm of the system is based on whether the
system supports sensitive data and whether the data is proprietary.]

Protect critical assets:

•   The FCC’s ITC group has begun development of security plans in accordance with
    NIST Special Publication 800-18 to protect critical assets. The ITC group also
    coordinates security assessments to identify potential risks to the FCC applications.
    Business continuity plans have also been developed, however, to better protect
    critical assets, the plans should be updated.

Links with key external systems:

•   FCC’s key external systems are identified through Memorandum of Agreement,
    Memorandum of Understanding, or Interagency Agreements. These agreements
    outline cross-servicing to be provided by the FCC and the corresponding
    responsibilities of the external organization.

System Interconnection and Information Sharing is defined in the template for FCC’s
security plans for general support systems and major applications in accordance with
guidelines from OMB A-130, Appendix III. Section l.9 of FCC’s security plans provides
descriptions for any system interconnection or direct connections to the application as
well as links with key external systems. Information in this section includes the
following:

        o List of interconnected systems or major applications and their system
          identifiers.
        o Description of interconnections with external systems not covered by a
          security plan and any security concerns.
                                                                              Page 18 of 24


       o Description of any required written authorizations (e.g., MOUs or MOAs) that
         are in place for connection with other systems and/or sharing of sensitive
         information.
       o Detail of the rules of behavior that have been established with the
         interconnected site.

Question # 11 - Describe the measures of performance used by the head of the agency to
ensure that the agency’s information security plan is practiced throughout the life cycle of
each agency system. Include information on the actual performance.

OIG response to Question #11 - The measures of performance used by the head of the
agency to ensure that the Commission’s information security plans are practiced through
the life cycle of each of FCC’s systems consist of carrying out the goals of the
Information Technology Strategic Plan (ITSP) as well as correcting deficiencies found in
prior years. Satisfying the functional, technical and business needs of the bureaus and
offices is the primary focus of the (draft) ITSP. The planning process addresses these
needs by involving internal stakeholders in individual and small group interviews and
group workshops where problems were defined and strategic vision and proactive
procedures were identified.

In addition, developing comprehensive security plans was identified as a material
weakness finding in the “Report on the Federal Communications Commission, Fiscal
Year 2000, Financial Statements”, dated June 27, 2001. The correction of this deficiency
will be tracked for timely response as well as how effectively developed the security
plans are for FCC’s major applications.

FCC is in the beginning stages of developing security plans. It is recommended that in a
subsequent review year, the status of security plan development be assessed.

Question #12 - Describe how the agency has integrated its information and information
technology security program with its critical infrastructure protection responsibilities, and
other security programs (e.g., physical and operational).

OIG response to Question #12 - The FCC’s security program environment is governed
by the Computer Security Program Directive 1479.1. The provisions of the directive
apply to all FCC employees and contractors who use a computer system or access
computer generated data to conduct business on behalf of the FCC. The directive
discusses safeguard measures to be taken for computer related information systems
processing or containing sensitive and Commission critical data. The directive should
also be used as a minimum standard for safeguarding other non-sensitive information
processed or stored on FCC computer equipment.

It is the policy of the FCC that computer systems, sensitive and mission critical
information, and facilities that promote the process of such information shall be used for
official agency/government business only, and shall be secured to at least the minimum
level of security defined in directive 1479.1 and other related FCC directives. FCC users
                                                                               Page 19 of 24


must not store national security classified information on FCC computer systems, unless
specifically authorized by the Associate Managing Director – Operations, Personnel
Security Office. A copy of each authorization must be forwarded to the Computer
Security Officer.

The FCC also maintains an “Information Security Manual” for classified information. In
Chapter 1, Section 4, Purpose and Applicability, it is stated that the regulations establish
uniform Commission policies, standards, criteria and procedures for the classification,
safeguarding, downgrading and declassification of National Security Information, and
provide for oversight and administrative sanctions for violations. The regulations are
applicable to all Commission headquarters and field activities. It further states in
Chapter 2, Section 1, Security Classification Designations, that information or material
that requires protection against unauthorized disclosure in the interest of national security
shall be classified in one of three designations, namely: “Top Secret,” “Secret,” or
“Confidential.” The markings “For Official Use Only,” and “Limited Official Use” shall
not be used to identify classified information. Moreover, no other term such as
“Sensitive,” “Conference,” “Agency” or “Commission” shall be used in conjunction with
the authorized classification designations to identify national security information.
Classification cannot be used to conceal violations of law, inefficiency, or administrative
error, to prevent embarrassment, nor to restrain competition.

The Commission’s policy on the handling of non-public information is stated in FCC
(draft) Directive 1139. The purpose of (draft) directive 1139 is to establish policies and
procedures for managing and safeguarding non-public information. These procedures are
necessary to protect the integrity of the Commission’s decision-making process and to
ensure public confidence in the agency’s ability to protect proprietary and other similar
material. Unauthorized disclosure of non-public information is prohibited by the
Commission’s rules and unauthorized disclosure of non-public information may result in
disciplinary action. In the case of contractors, unauthorized disclosure may result in
termination of the contract, replacement of a contract employee, or other appropriate
measures.

The above topics are introduced to users of FCC’s computers in the Security Awareness
Orientation that is provided monthly to all new users of the general support system. A
User Access Acknowledgement form is required to be signed at the completion of
training to provide assurance that users are aware of their information security
responsibility. The policy for use of computer resources as stated on the User
Acknowledge Form is:

As an employee or contractor of the Federal Communications Commission (FCC), you
are required to be aware of, and comply with, the FCC’s policy on all usage and security
of computer resources.

The specific topics covered on the form are:

•   Responsibility for all actions performed with a users personal user ID
                                                                               Page 20 of 24


•   Policy, Standards and Procedures that must be followed.
•   Advising the user to control the information they access
•   Proper use of the FCC computer resource is the user’s responsibility

Physical Security Program

The FCC Directive 1479.1, Section 14, provides a topic on Physical Security and
Computer Equipment Handling. The policy states that the offices and work areas where
FCC computer systems are located must be physically secured when unattended. The
policy further states that adequate controls should be employed consistent with the value,
exposure and sensitivity of the information and equipment that is to be protected. The
policy advised that although the value of a computer can be significant, the value or
importance of the information, can be far greater.

The Commission houses two data centers that are located on separate floors within the
445 12th Street, SW, Washington, DC, headquarters facility. The data centers are
designated as sensitive areas, therefore, the access is controlled by issuing access to those
personnel who must have access to the data centers.

Card keys must be used upon entry and exit to the FCC headquarters facility. All visitors
must sign in, receive a visitor badge, and must also pass through the metal detector
apparatus to complete the screening process. The elevator lobbies on each floor have
access control points that restrict visitors from using their badge to enter the FCC work
area. To enter an FCC work area, the visitor must be escorted by a holder of an FCC
employee badge or contractor badge. A formally documented physical security policy
needs to be developed.

Operational Security Program

The Commission’s operational security program safeguards the critical infrastructure
through its personnel security and suitability manual policy; through the logical access
controls to FCC’s general support systems and major applications, and through having
contingency plans for continuity of FCC’s business operations.

Personnel Security/Suitability Manual (draft)

The purpose of the FCC Personnel Security/Suitability Manual (Manual) is to provide
guidance and a basic understanding of the responsibilities, duties, and assignments for the
FCC’s Personnel Security and Suitability Program. The FCC’s practice and policy is to
employ and retain individuals who are found suitable for Federal employment in order
for the FCC to complete its operations, goals, and missions. Every appointment,
including contractor positions, shall be made subject to investigative processing.

The FCC’s Security Operations Center (SOC) maintains a personnel/suitability file on
each individual. The SOC is the main repository for all security information and the SOC
maintains a Personnel Security database/file. Privacy Act and Freedom of Information
                                                                              Page 21 of 24


act requests for security information is referred to the SOC for direct response to the
requestor. The personnel security/suitability file consists of the individual’s completed
Standard Form 85, or 86 that is applicable to the designated position risk/sensitivity level.
These forms may be destroyed after completion of the OPM report of investigation and
after the Security Officer certifies and dates the Certification of Investigation (CIN). The
file also consists of a copy of the Position Risk Designation Record with the OF 8,
Position Description.

Initially, the Commission’s Human Resources Management Office designates all FCC
positions as to the position’s risk/sensitivity level using the Office of Personnel
Management’s Position Risk Designation System upon receiving a position description
from the Bureaus/Offices. The SOC reevaluates HRM’s initial designation determination
to ensure accuracy and consistency in the FCC’s Personnel Security and Suitability
Program. The SOC has the final decision on all position risk/sensitivity level
designations.

Contingency Planning

The security plans for major applications and general support systems contains a section
on contingency planning. The objective is to provide procedures that will permit the
organization to continue essential functions if information technology support is
interrupted. The procedures (contingency plans, business continuity plans, and continuity
of operations plans) should be coordinated with the backup contingency, and recovery
plans of any major application. The contingency plans should ensure that interfacing
systems are identified and contingency/disaster planning coordinated.

Also in place as an operational control is the “TechFest” meeting, which is held every
day at 8:30 AM. The TechFest meeting is a forum to discuss the issues of the day or the
problems that may have come up over night. The attendees are from the Information
Technology Center with a representative from each area of support.

Question #13 - Describe how the specific methods (e.g., audits or inspections) used by
the agency to ensure that contractor provided services (e.g., network or website
operations) or services provided by another agency are adequately secure and meet the
requirements of the Security Act, OMB policy and NIST guidance, national security
policy, and agency policy.

OIG response to Question #13

Private Sector Agreements

The Commission’s Office of the Managing Director, Information Technology Center,
made a computer security facility site visit inspection to J.P. Morgan/Chase Bank in New
York City, NY. The purpose of the site visit was to perform a cursory review of the
facility to ensure that an adequate baseline security posture was in place prior to the
transfer of FCC information to the contract facility. A second objective of the site visit
                                                                             Page 22 of 24


was to verify that the FCC was about to engage in a bona-fide professional business
versus a type of business where adherence to security policy might not be a business
priority.

FCC computer security policies have no exclusionary provision, but are applicable to
computer systems and information/applications containing FCC information for which
the FCC is the legal custodian. The boundaries of responsibility apply whether the
processing services are performed at a FCC facility or by a contracted vendor. More and
more Federal government work is being performed by contractors. When these
organizations are under contract with the FCC, the contract must specify adherence to the
FCC Computer Security Program Directives. In addition, before entering into an
agreement to process or handle sensitive information at a contractor facility, a security
assessment of the facility should be conducted, or should have been completed within the
previous three years. The results of the analysis will be made available to the Contracting
Officer and the Computer Security Officer for review.

The contract should specify that FCC reserves the right to perform on-site inspections
(announced/unannounced) of the site where FCC information is being processed. The
inspections are used as a tool to ensure adherence to FCC’s computer security directive
and policies, and other applicable Federal regulations and mandates.

The target facility for the site visit inspection was J.P. Morgan/Chase Bank, Capital
Market Fiduciary Services, 450 West 33rd Street, New York, NY. The following
represents a list of the security controls that were in place at the target facility:

•   Physical Safeguards at the facility
       o Picture ID assigned to each person working for J.P. Morgan/Chase Bank;
       o Guests are required to sign in/out when visiting J.P. Morgan/Chase Bank
           facilities;
       o 24/7 guard services are provided at the facility
       o Guard monitoring station in place with displaced cameras throughout the
           building with centralized monitoring;
       o Fire alarms installed throughout the building, which alarm locally; and
       o Sprinkler fire suppression system installed throughout the building.

•   Storage Vault Safeguards
       o Diebold card access with picture ID assigned to each person who is granted
           permission to access the document storage vault;
       o Magnetic locking systems installed on all doors accessible to the vault;
       o Slab-to-slab walls installed in the vault;
       o No raised floors installed in the vault; and
       o Motion detection system installed in the vault with alarming to guard station.

•   Computer-based Loan Processing System (Mortgage Collateral System (MCS))
      o NT v.4.0 platform;
      o Appropriate use banner displayed at each user login session;
                                                                              Page 23 of 24


       o   Running Norton Anti-Virus software (updated routinely);
       o   Screen saver use mandatory;
       o   10 minute automatic timeout feature when connected to MCS; and
       o   Internet System Security (ISS) is used to provide system level intrusion
           detection capabilities.

•   Other in-place safeguards consisted of:
       o System Development Life Cycle;
       o Policy on computer security and system usage;
       o Encryption use policy, includes the use of connect direct, MQ Security and
           DES;
       o Computer Security Awareness Training is provided to all J. P. Morgan/Chase
           Bank employees (e.g., user level awareness, technical level, system custodian
           and local user level);
       o Hot site contingency planning facility located at 4 New York Plaza. Site can
           be occupied within 24 hours and is equipped with similar physical and
           environment security controls as in place at the 450 West 33rd Street facility;
           and
       o System level backup are performed routinely (e.g., intro-day, nightly and
           weekly) and stored on DLTs using a centrally located disk farm.

The cursory review of the site visit inspection provided verification that security controls
that are physical, logical, and computer-based, appear to be in place. Although the
security controls were not tested for reliability, discussions with respective program
managers were held.

Agreements with Federal Agencies

The Commission has entered into Memorandum of Understanding, Memorandum of
Agreement and Interagency Agreement with agencies that provide service to the FCC.
However, the Commission has not performed an audit or inspection of these contracted
servicing agencies. The following cross-servicing agreements have been developed:

•   The Federal Communications Commission and the US Department of Interior,
    Bureau of Reclamation, Administrative Services Center (ASC) have entered into a
    Memorandum of Understanding. The ASC provides processing services and
    operations support to the FCC on the Federal Financial System (FFS).

•   The Federal Communications Commission and the National Business
    Center/Products and Services (NBC/PS), Office of the Secretary, have entered into a
    Memorandum of Understanding. The NBC/PS provides detail database conversion of
    the Nortridge Loan System (NLS) from Sybase to Oracle, configuration setup,
    implementation, ongoing database administration and security administration services
    and support to the FCC.
                                                                             Page 24 of 24


•   The Federal Communications Commission and the US Department of Agriculture
    have entered into a Memorandum of Agreement. The USDA provides payroll and
    personnel data processing services and telecommunications access to the USDA
    mainframe to the FCC.

•   The Federal Communications Commission and the Department of Interior Franchise
    Fund, National Business Center (DOI/NBC) have entered into an Interagency
    Agreement. The DOI/NBC provides software maintenance and NBC Help Desk
    support for the FCC implementation of the Interior Department Electronic
    Acquisition System – Procurement Desktop (IDEAS-PD) to the FCC.

The agreements mentioned above (MOU, MOA, IA) are with Federal government agency
service centers. Some of these agreements were entered into as early as June 1989.
Although an implied trust relationship exists between agencies who provide cross-
servicing, a review of the audits and/or inspections performed on the contracted servicing
agency needs to be enforced.

Question #14 – Each agency head, working with the CIO and program officials, must
provide the following information to OMB by October 31, 2001. Provide a strategy to
correct security weaknesses identified through the annual program reviews, independent
evaluations, other reviews or audits performed throughout the reporting period, and
uncompleted actions identified prior to the reporting period. Include a plan of action with
milestones that include completion dates that: 1) describes how the agency plans to
address any issues/weaknesses; and 2) identifies obstacles to address known weaknesses.

OIG response to Question #14 - This question is not applicable to the OIG per OMB
reporting instructions.
